Before the Committee on Homeland Security
and Governmental Affairs
Permanent Subcommittee on Investigations
United States Senate
For Release on Delivery
Expected at
2:30 p.m. EDT
                          Opportunities To
Tuesday
April 24, 2007
                          Improve Internal Controls
                          Over the Federal Transit
CC-2007-048



                          Benefit Program

                          Statement of
                          The Honorable Calvin L. Scovel III
                          Inspector General
                          U.S. Department of Transportation
Chairman Levin, Ranking Member Coleman, and Members of the Subcommittee:

We are pleased to be here today to testify on opportunities to improve internal
controls over the Federal Transit Benefit Program. A foremost concern of all
participating agencies is maintaining the integrity of this important program and
ensuring that it remains free of employee fraud and abuse. Our testimony today is
based on our audit and investigative work regarding those issues.

The Government Accountability Office’s current work found weaknesses in transit
benefit programs at several agencies that make the Program susceptible to employee
abuse or fraud. Those findings underscore the need to review and improve internal
controls at all Federal agencies participating in the Program.

Mass transit plays an integral role in reducing traffic congestion and pollution and
improving the quality of life for the Nation’s workforce. In 1991, the Department of
Transportation (DOT) began actively encouraging its employees to take advantage of
these resources by becoming the first Federal agency to offer a monthly mass transit
subsidy of $21 for employees—creating the first Federal transit benefit program. By
1998, DOT had nearly 6,000 participants in the Program, and the maximum monthly
subsidy had increased to $65 per employee. DOT employees can now receive a
maximum monthly subsidy of up to $110.

Due to the success of the Federal Transit Benefit Program, President Clinton issued an
Executive Order in April 2000 mandating that all Federal agencies in the National
Capital Region provide incentives to their employees to use mass transit. Agencies
had until October 1, 2000, to comply with the order.

Due to the short, 6-month timeframe, many agencies chose to use the existing services
of the DOT Program’s transit office to administer the acquisition, safekeeping, and
distribution of transit benefits for their employees. Today, DOT facilitates the
distribution of about $205 million in annual benefits for 108 Federal organizations to
provide transit incentives to over 233,000 Federal employees nationwide. Within the
National Capital Region alone, DOT’s transit office facilitates distribution of
$102 million in annual benefits to over 106,000 Federal employees.

An important point, Mr. Chairman, is that while DOT provides support for other
agencies, it does not manage their transit benefit programs. Each agency is
responsible for ensuring the integrity of its own program and establishing appropriate
internal controls. For example, each participating agency is responsible for
determining the initial and ongoing eligibility of each participant and the monthly
subsidy that the participant qualifies for and for taking appropriate management
action to address instances of employee fraud or program abuse.



                                                                                    1
As we have seen in other Federal programs, such as the Government Purchase Card
and Travel Card Programs, strengthening internal controls and increasing the role of
management are keys to improve accountability and prevent fraud and abuse. We see
the role of the Inspectors General in the Federal Transit Benefit Program as one of
oversight to ensure that internal controls are sufficient and that they are adhered to.

Today, I would like to discuss (1) the strengths and weaknesses of DOT’s internal
controls over its transit benefit program and (2) opportunities, as we see them, to
improve internal controls over the transit benefit programs at DOT and all
participating Federal agencies.

DOT Has Implemented Internal Controls Over Its Transit Benefit
Program, but There Are Areas for Improvement
DOT implemented internal controls designed to prevent potential fraud or abuse
within the Program. For example, DOT has a series of internal controls over the
distribution of paper fare media when employees pick up their benefits. Those
include requiring employees to provide current Government identification, verifying
their enrollment in the program and the amount of benefits that they are eligible to
receive, and requiring them to check a box stating whether or not their residence has
changed. As noted below, DOT has also established controls to monitor the initial
application and certification process and employees’ continuing eligibility for
participation in the Program. While those controls provide some assurances, there are
areas for improvement.

More Supervisory Oversight Could Improve Controls Over the Initial
Application and Certification Process. DOT established a series of initial controls
to ensure that employees are eligible to receive benefits. For example, DOT
employees must complete an application for the Transit Benefit Program. The
application includes information about their city of residence, work location, mode of
transportation, and commuting costs. DOT employees are also required to certify that
the information provided is accurate and acknowledge punitive actions that could be
taken against them for violations of the Program. The final application is approved by
a Transit Coordinator within their agency who is responsible for verifying that
applicants are DOT employees and eligible for benefits.

In 1995, DOT established a policy for cross-checking active participants in the Transit
Benefit Program against names of DOT employees registered for parking permits in
DOT buildings to ensure that transit benefits provided were actually used by the
employee for commuting purposes. That check is necessary because employees could
try to receive subsidized parking permits for DOT buildings while also receiving and
accumulating transit benefits. The accumulated transit benefits could then be used for
means other than their authorized purposes.



                                                                                     2
The cross-check procedure, if done consistently, is an important step that should
prevent that type of employee abuse. However, it is limited because it would only
detect DOT employees receiving both parking and transit benefit subsidies from
DOT. It would not identify cases involving DOT employees who are registered with
a carpool using parking privileges at another Federal agency.

We found other weaknesses within DOT’s internal controls over the application
process. For example, when initially applying for transit benefits, employees list their
city location, method of transportation, and total monthly commuting expenses
incurred. Based on the information provided, employees can then receive up to $110
in transit benefits each month. Employees self-certify that the information entered on
their enrollment application is complete and accurate. However, DOT has not
developed a mechanism to determine if the commuting costs claimed by an employee
are reasonable, based on the distance between an employee’s home and work and the
method of transportation used.

In our opinion, a significant weakness in this process is that employees’ supervisors
are not involved. Currently, there is no uniform process for DOT that requires
supervisors to approve employees’ transit benefit applications. Instead, DOT
employee applications are approved by a Transit Coordinator, who is responsible for
approving benefits for an entire agency. Although involving employees’ supervisors
would not solve every issue, supervisors are in a better position to know information
about employees such as their home location, commuting methods, and schedule.

Involving employee supervisors in the application process could help prevent cases
where employees misrepresent their commuting methods or distance and obtain more
transit benefits than they are eligible for. The ability of an employee to accumulate
transit benefits creates the opportunity to use those benefits for other than their
authorized purpose. Our investigations over the last several years have uncovered this
type of abuse.

 • For example, a DOT employee applied for more transit benefits than she was
   eligible to receive. She certified on the enrollment application that she was
   eligible for the maximum amount of transit benefits when her actual commuting
   costs were significantly less. When confronted by our investigators, she
   acknowledged that she used the excess fare cards for personal travel on weekends.
   In this case, a supervisor’s review of the information provided may have detected
   the misrepresentation of her commuting costs.
 • In a similar case, our investigators identified a DOT employee who received
   transit benefits worth over $4,300 over a 5-year period while he was actually
   driving to and from work. When confronted by our investigators, the employee
   admitted that he gave the benefits to friends. He also admitted that he self-
   certified the information about using the transit benefits for his daily commute.


                                                                                      3
   The employee was subsequently terminated and required to repay the fraudulently
   obtained benefits. Likewise, in this case, had a supervisor been required to review
   the application, the inconsistencies may have been discovered.

We note that Government-wide program management improvements in the
Government Purchase Card Program included requirements for better supervisory
oversight.     Similar requirements for DOT’s transit benefit program would
significantly improve the Department’s existing internal controls.

Additional Controls Are Needed To Adequately Monitor Employees’ Ongoing
Program Eligibility. DOT has recently established a new, internal control to check
that employees remain eligible for the amount of benefits that they were originally
authorized to receive. Last month, DOT began requiring DOT employees to recertify
their eligibility for transit benefits. This new process requires all participants in the
National Capital Region to update their enrollment information by July 1, 2007, and
will now be an annual requirement to continue participating in the Program.

These are clearly steps in the right direction, but additional controls are needed.
While program participants sign a roster when they pick up their transit benefits
certifying that their home and work addresses have not changed, in our view, stronger
controls need to be put in place. We found that other than employees’ self-
certification, there are no procedures requiring employees to update personal
information for changes when they occur, such as changing their commuting method
or work schedule through either extended leave, temporary duty, or telecommuting.
All of those factors affect the amount of benefits an employee is eligible to receive.
By not updating personal information, employees could accumulate benefits in excess
of their actual monthly requirements, which violates the Program’s rules and makes it
likely that the benefits will be used for other than their authorized purpose.

Our investigations have confirmed instances of employees abusing the Program in
such a manner.

 • For example, a DOT employee sold $789 worth of fare media that she received
   through the Transit Benefit Program on the online auction website, eBay.® When
   confronted by our investigators, she admitted to selling the excess transit benefits
   but stated that she was not aware that selling them was prohibited. The employee
   told our investigators that the excess benefits were accumulated as a result of her
   temporary assignment, which allowed her to work from home 4 days per week.
   Had the Department established procedures requiring employees to update their
   information and recertify as changes in commuting methods or schedules
   occurred, this situation may have been prevented.

In our opinion, DOT needs to improve the existing controls over the application and
certification process by requiring employees to update their information and recertify


                                                                                       4
whenever meaningful changes in their commuting methods or schedules occur.
Requiring employee supervisors to review and approve this information would help to
improve this aspect of the process.

Opportunities To Improve Internal Controls Over the Transit Benefit
Program Throughout the Federal Government
Our work has identified areas where the Department can proactively improve controls
over its Program. In our view, these actions could also be taken Government-wide to
help ensure the integrity of the Transit Benefit Program at all participating agencies.
These actions include the following:

Including the Transit Benefit Program in agencies’ assessments of their internal
controls during the A-123 process: To date, most identifications of internal control
deficiencies regarding the Transit Benefit Program have resulted from investigations
of alleged abuse. While our investigations will continue to identify these weaknesses,
managers can take greater responsibility for assessing and correcting internal control
deficiencies by integrating the Transit Benefit Program with the Office of
Management and Budget (OMB) Circular A-123 assessment process.

OMB Circular A-123 requires Federal managers to take systematic and proactive
measures to assess the adequacy of internal controls of their programs and operations
and report annually through management assurance statements. Circular A-123
provides specific requirements for management to assess and report internal controls
over activities such as financial reporting and the use of Government purchase and
travel cards. In the case of DOT, the Department includes controls over safeguarding
paper fare media as part of its A-123 process but it does not include an assessment of
its Transit Benefit Program operations, such as the application and distribution
processes.

Including an assessment of the internal controls over the Transit Benefit Program in
the A-123 process could be an effective means for proactively preventing fraud or
abuse.

Requiring employees to annually recertify their eligibility: DOT has recently
initiated an online process requiring Federal employees using the Program in the
National Capital Region to update and recertify their enrollment information annually.
Participants are required to update and verify items such as their mode of transit and
their monthly commuting costs. They also are asked to confirm specific information
such as their city, state, and zip code as well as their permanent duty station location.
Prior to finalizing the recertification, participants are prompted with a warning
statement that clearly states that false, fictitious, or fraudulent certifications may result
in criminal prosecution.



                                                                                           5
This warning also states that the employees are fully aware that they are certifying to
the following:

 • they are employed with the U.S. Department of Transportation;
 • they are eligible for a public transportation fare benefit;
 • they will use it for their daily commute and will not give, sell, or transfer it to
   anyone else; and
 • they will not use the Government-provided transit benefit in excess of the statutory
   limit in any given month.

All Federal agencies that have not already done so should implement a similar
recertification requirement to ensure the accuracy of Program data and to clearly
communicate the responsibilities of Program participants. Although the annual self-
certification process could help in “keeping honest employees honest,” it would not
prevent employees from intentionally falsifying their information. To minimize those
cases of abuse would require other means, such as independently verifying the
information provided.

Further, the annual certification process would not reflect changes that may occur to
employees’ commuting methods or work schedules during the year that significantly
affect their eligibility or the amount of benefits they are eligible for. To accurately
capture those changes, additional controls would be needed requiring employees to
update their information and recertify whenever changes in their commuting methods
or work schedules occur.

Reviewing and applying appropriate lessons learned in other Government
programs: There are lessons to be learned from other Government-wide efforts to
prevent fraud and abuse. In the past, the Federal Government has shown its ability to
strengthen its oversight of programs when it focuses on those issues. For example,
OMB made significant improvements Government-wide to both the Government
Purchase Card Program and the Travel Card Program in 2002. Those Programs are
also similarly susceptible to fraud and abuse by employees, and OMB directed
agencies to evaluate their internal controls and develop remedial action plans. OMB
later distributed recommendations to the agencies on best practices and eventually
developed Appendix B to OMB Circular A-123, which sets out how agencies should
go about improving the management of Government charge card programs.

Training and enforcement improved these programs and could also benefit the Transit
Benefit Program. A well-developed training program provides for consistent
education and information about the program, ensures that participants cannot avoid
being held accountable by later claiming they were unaware of the program’s
requirements, and heightens awareness of the consequences of program abuse. For


                                                                                     6
example, all Federal employees must complete a training course before they are
authorized to use Government purchase cards. Similar training should be established
for the Transit Benefit Program. Agencies should be able to use their experience in
developing and implementing these programs for purchase cards and apply it to
improving the Transit Benefit Program.

Developing and enforcing consistent administrative policies: While potential
criminal and civil penalties could result from transit benefit fraud, this type of fraud is
unlikely to be prosecuted and, in our experience, has not been prosecuted. For this
reason, it is important that management pursue appropriate disciplinary action.

However, there are no required or recommended disciplinary actions for transit
benefit fraud. In our experience, management has responded to transit benefit fraud
and abuse cases with punishments ranging from verbal counseling to the proposed
removal of the employee. The development of uniform, recommended penalties and
consistent enforcement of those penalties would, in our opinion, be important steps
for preventing this type of abuse.

We are also not aware of any current procedures for denying employees future transit
benefits due to their misuse of the Program. Agencies should consider whether this
would be appropriate and how best it could be implemented.

Mandating the use of the SmartBenefits® program throughout Government
agencies in the National Capital Region: Most transit benefits are provided to DOT
employees using paper fare media. However, based on discussions between our
office, the Department, and the Washington Metropolitan Area Transit Authority
(WMATA), the transit authority announced that it will transition all Federal and
private-sector employees to the electronic fare media by January 2008. The
Department subsequently mandated that all DOT employees receiving transit benefits
in the National Capital Region must begin using electronic fare media as of July 1,
2007, if their mode of transit is equipped to accept that technology.

The SmartBenefits® program features an electronic plastic fare card known as a
SmarTrip® card. This card is rechargeable in that it can have benefit amounts
electronically loaded onto it each month and can be used on Metrorail, Metrobus, and
registered vanpools, as well as some other area transit systems, such as DASH and the
D.C. Circulator. Under the SmartBenefits® program, the monthly transit benefits an
employee is authorized to receive are electronically distributed to the employee’s
SmarTrip® card at kiosks in Metrorail stations.

Other agencies that voluntarily implemented the use of SmarTrip® have experienced
high rates of utilization of the technology. For example, at the Federal Aviation
Administration, about 61 percent of the participants use this technology.



                                                                                         7
Use of the SmarTrip® card in the National Capital Region reduces the potential for
fraud and abuse because it is more difficult to sell or transfer benefits on the
SmarTrip® card than when benefits are distributed using paper fare media. This is
because of several reasons.

 • First, the SmarTrip® card is programmed to accumulate a maximum of $300 in
   credits. This would prevent employees from developing a large cache of unused
   benefits and using them for means other than their authorized purpose.
 • Second, if employees sell their SmarTrip® card, they must obtain a replacement in
   order to continue receiving benefits. The SmarTrip® card allows for detailed
   electronic record keeping about each employee’s use of the card. Employees
   frequently requesting new cards would raise a “red flag” of possible fraud if a
   means were available to screen for such activity and report it to the employees’
   agency.
 • Third, because employees’ monthly benefits are loaded onto the SmarTrip® card (a
   single card as opposed to the multiple paper fare cards currently distributed),
   employees cannot use part of their benefit and then give away or sell the unused
   portion of their benefits as easily as with paper fare cards. For example, under the
   current system, an employee could hypothetically receive $110 in benefits by
   receiving 11 fare cards worth $10 each, use 5 of the fare cards for actual
   commuting expenses, and then sell the 6 unused cards. With the SmarTrip® card,
   all $110 in benefits will be loaded onto the electronic card.
Federal agencies in the National Capital Region also stand to achieve cost savings
with regard to processing millions of dollars in paper fare media. Considering
WMATA’s deadline for its transition to SmartBenefits,® Federal agencies need to act
now and mandate the use of the SmartBenefits® program for participants in their
transit benefit programs.

In closing, it is important to recognize that the role of the Inspectors General in the
Federal Transit Benefit Program is to ensure that strong internal controls are
established and adhered to across the Government. It is equally important to
recognize the number of actions that agencies could take now to improve internal
controls over their programs, absent mandates from OMB or legislation. They
include the following:

 • Requiring that employees’ supervisors review and approve employee enrollment
   applications before they are sent to the agency Transit Coordinator.
 • Requiring employees to annually certify that the information included in their
   enrollment application is accurate and subjects them to disciplinary action, such as
   suspension or debarment from the Program, for falsifying information.




                                                                                     8
 • Requiring employees to update their information and recertify whenever changes
   in their commuting methods or work schedules occur.
 • Checking that employees applying for transit benefits are also not receiving
   subsidized parking benefits.
 • Converting to the electronic fare cards (SmartBenefits®) in the National Capital
   Region.

 • Developing procedures to screen for employees who frequently request new
   SmarTrip® cards.

In addition, the integrity of the Transit Benefit Program could be improved
Government-wide if each agency adopted best practices found in other Government-
wide programs that are also susceptible to employee abuse or fraud (such as the
Travel Card Program and Purchase Card Program). Those best practices include the
following:

 • Developing training programs (similar to the Purchase Card Training
   requirements) for participants in the Transit Benefit Program and their managers.
 • For those agencies that have not already done so, expanding the A-123 process to
   cover their transit benefit programs, similar to requirements for Government travel
   and purchase cards.
 • Ensuring that there are uniform administrative penalties and sanctions (including
   suspension or debarment from the Program or termination from employment)
   available to and consistently enforced by agency managers when employees have
   abused or misused transit benefits.

That concludes my statement, Mr. Chairman. I would be happy to address any
questions you or other Members of the Subcommittee may have.




                                                                                    9
